                         FOR OFFICIAL USE ONLY

     FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE




                 SECURITY WEAKNESSES IN DOT’S
                COMMON OPERATING ENVIRONMENT
                 EXPOSE ITS SYSTEMS AND DATA
                        TO COMPROMISE

                       Department of Transportation

                           Report No. FI-2013-123
                       Date Issued: September 10, 2013




This document contains information exempt from mandatory disclosure under
FOIA. Exemptions 3 and 7(e) apply.




FOR OFFICIAL USE ONLY. Public Availability To Be Determined under 5 U.S.C.
552, Freedom of Information Act.

    FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE
           FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE




           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Security Weaknesses in DOT’s                                             Date:    September 10, 2013
           Common Operating Environment Expose Its
           Systems and Data to Compromise
           Report No. FI-2013-123

  From:    Louis C. King                                                                 Reply to
                                                                                         Attn. of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology Audits

    To:    Chief Information Officer

           In 2003, the Department of Transportation (DOT) implemented a common
           operating environment (COE) network to centralize its information technology
           (IT) services. The Office of the Chief Information Officer (OCIO) manages the
           COE, which provides email management, computer infrastructure, internet access,
           and other IT services to over 10,000 users in all of DOT’s operating
           administrations (OA) except the Federal Aviation Administration. Due to the
           COE’s centralized nature, any security vulnerabilities within the COE put its users
           at risk for compromise, and could impair DOT’s ability to accomplish its mission.

           We initiated this audit to review DOT’s security controls for protecting the COE
           and the information it contains. Our objectives were to determine: (1) whether the
           COE is as safe from compromise as possible; and (2) what, if any, security
           vulnerabilities the COE contains.

           To conduct our work, we reviewed the COE’s network documentation and
           security policies to establish a baseline view of the environment. We performed
           external and internal assessments that covered the COE’s entire network. These
           assessments included penetration tests, 1 vulnerability scans, and manual tests of
           networked systems, websites, and infrastructure to identify any weaknesses in
           DOT’s security controls. We also interviewed COE personnel. As part of this audit
           we selected a statistical sample of 134 of 5,735 computers that allowed us to


           1
            Penetration testing validates or invalidates security controls’ proper operation by emulating methods hackers use to
           compromise systems.

           FOR OFFICIAL USE ONLY. Public Availability To Be
           Determined under 5 U.S.C. 552, Freedom of Information Act.
           FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE
FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE

                                                                                                                       2

project the number of computers that had critical vulnerabilities. 2 Exhibit A
provides more details on our scope and methodology. We conducted our audit
work from February 2012 to July 2013 in accordance with generally accepted
Government auditing standards.

RESULTS IN BRIEF

(FOUO) The COE is not secure from compromise. During our penetration
testing—tests that are similar or identical to attacks by hackers—we gained full
access to the COE network. The National Institute of Standards and Technology
(NIST) provides comprehensive guidance to agencies on how to protect their
networks from intrusions. NIST also provides guidance on handling security
incidents, including intrusions such as the unlimited access we gained to the
network. But the COE’s incident handling process did not detect our intrusion. As
a result, we continued to have full access for over a week before the COE’s
management discovered and terminated our presence on the network.



                                                                              These
deficiencies, which are the result of ineffective security controls, put the COE at
risk of unauthorized access and its systems and information at risk of compromise.

(FOUO) The COE contains vulnerabilities that could allow the compromise of
sensitive data. Thirty of 205 servers with internet accessible websites contained
critical vulnerabilities.


                 Furthermore, OCIO does not maintain an accurate inventory of
computer devices on the COE, preventing the identification of unauthorized
systems. The COE also has weak user identity authentication controls because
OCIO has not fully implemented multifactor identity authentication, 3 and
                                                                 Finally, OCIO
does not perform required security testing on the COE to identify and remediate
common vulnerabilities typically used by network attackers, and does not
effectively document vulnerabilities for resource allocation and remediation.
2
  A critical vulnerability requires immediate attention. They are relatively easy for attackers to exploit and may provide
them with full control of the affected systems.
3
  Multifactor authentication requires users to provide at least two methods of identity authentication, such as a
password and a personal identity verification card, security token, or biometric, such as a fingerprint, to access the
information system.
4
  A password, such as the word “password,” is weak if it is relatively easy to guess.



FOR OFFICIAL USE ONLY. Public Availability To Be
Determined under 5 U.S.C. 552, Freedom of Information Act.
FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE
FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE

                                                                                                                       3

NIST, the Office of Management and Budget (OMB), and DOT policies identify
requirements to secure networks and reduce these vulnerabilities. The lack of these
required controls on the COE puts its networks, systems and data at risk for
compromise.

We are making six new recommendations to assist OCIO in securing the COE’s
sensitive data and critical functions. The recommendations in this report are in
addition to four open recommendations from our Federal Information Security
Management Act (FISMA) audits, which are identified in Exhibit B.

BACKGROUND

DOT’s COE provides ten OAs at the Department’s Headquarters in Washington,
DC, with IT services, such as data storage, email and web application access, and
database services. The COE also provides a centralized environment for
applications that OAs use in support of their operations. To use the COE, OAs
enter into agreements with OCIO that define their responsibilities, including
regular scanning for vulnerabilities, to maintain their applications and systems in a
secure manner. Due to its importance to the DOT’s mission, OCIO assigned the
COE an impact rating of high as defined by NIST. 5

OMB and NIST provide policies and guidelines to Federal agencies in IT security.
DOT’s Cybersecurity Compendium establishes policies, processes, procedures,
and standards for the Department’s information systems security. It also requires
OAs to record detected weaknesses in their information systems and plans of
action and milestones (POA&M) to correct them in the Department’s Cyber
Security Assessment and Management (CSAM) system. CSAM tracks system
weaknesses and their remediation.




5
  NIST’s Federal Information Processing Standards Publication 199, Standards for Security Categorization of Federal
Information and Information Systems, defines impact as high if the loss of confidentiality, integrity, or availability is
expected to have a severe or catastrophic effect on organizational operations, assets, or individuals.




FOR OFFICIAL USE ONLY. Public Availability To Be
Determined under 5 U.S.C. 552, Freedom of Information Act.
FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE
FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE

                                                                                                                     4

THE COE IS NOT SECURE FROM COMPROMISE

Our penetration testing demonstrated that the COE is not secure from compromise.
We were able to gain unauthorized access to the network due to use of insecure
user identity authentication methods. COE administrators remained unaware of
our access for over a week because an effective method of incident detection for
the COE does not exist. Furthermore, OCIO does not ensure that OAs conduct
testing of COE users’ security awareness and some users were unable to recognize
the types of social engineering emails that we sent—types of email frequently used
to gain unauthorized access to networks.

We Gained Unauthorized Access to the COE

(FOUO) Using common computer hacking procedures, we gained unauthorized
access to the COE’s network and sensitive applications. NIST and DOT policies
call for agencies to require a high level of password complexity for system access,
such as a minimum number of characters that include a mix of upper and lower
case letters, numbers, and special characters. Furthermore, DOT policy requires
OAs to employ encryption to prevent unauthorized disclosure of information
during transmission.



                              These practices made it easy for us to discover and
decode network                                using tools and methods available on
the internet. By using an administrator’s captured user id and password, we gained
access to sensitive data such as drug testing results, and legal information. We also
gained control of an uninterrupted power supply that the Federal Highway
Administration uses to provide backup electrical power to its server. In addition,
after accessing the COE network, we were able to intercept and redirect network
traffic and gain full access to the Department’s other servers and sensitive data.

OCIO’s Ineffective Incident Detection Makes the COE Vulnerable

(FOUO) OCIO cannot always detect and recognize security breaches in the COE.
NIST recommends that agencies use automated incident detection methods 6 for
high impact systems such as the COE.

                       As a result, OCIO did not detect our presence in the COE for over
6
  Software that monitors network security incidents, such as denial of service attacks, unauthorized access and devices
that attempt connection to the network.



FOR OFFICIAL USE ONLY. Public Availability To Be
Determined under 5 U.S.C. 552, Freedom of Information Act.
FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE
FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE

                                                                                                                     5

a week. In addition, once we gained access, we created our own administrative
account that OCIO personnel did not detect and remained unaware of until we
informed them several weeks later. When we notified them of our successful
penetration, COE personnel informed us that the COE’s monitoring system did not
detect our unauthorized activity. In addition, we performed vulnerability and
penetration testing of DOT websites and server security from outside the COE’s
network that COE administrators also did not detect.

The absence of network surveillance and monitoring allowed our unauthorized
interception and manipulation of data transmitted across the network. While OST
has a memorandum of agreement with the DOT’s Cyber Security Management
Center (CSMC) 7 regarding network monitoring and surveillance services for the
COE, it does not require its full enforcement. For example, CSMC has not
developed a network diagram or collected device configuration data for all active
COE network hardware—needed information for proper configuration of tools for
scanning and incident detection. OAs must provide CSMC an inventory of all
networks and devices in use by their organization. OCIO was unable to provide
evidence that it had given this information to CSMC.

The COE Is Vulnerable to Unauthorized Access Due to Users’
Nonadherence to Sound Email Security Practices

The COE is also vulnerable to social engineering emails—deceptive emails that
are meant to cause people to break security procedures and provide proprietary
information such as passwords and account numbers. DOT policy requires OAs to
conduct periodic exercises—such as sending emails that contain suspicious links
and placing telephone calls asking for sensitive information—to verify that
personnel are applying the knowledge learned in required annual security
awareness training. In addition, OCIO requires users that access the COE accept
the DOT Rules of Behaviors (RoB), which reference the security awareness
requirements, prior to accessing the network. OCIO could not provide evidence
that it or the OAs conduct periodic exercises to assess the effectiveness of the
annual security awareness training and compliance with RoBs related to social
engineering e-mails.

To test users’ security awareness, we sent emails that were crafted to look
suspicious to 493 selected COE users from across the OAs. We found that at least
13 8 users opened the emails, clicked on the links, and were redirected to our test

7
 Established in 2004, DOT’s CSMC is responsible for providing intrusion detection monitoring services.
8
 Our testing tool, which did not properly log and process all connections, logged thirteen attempts to connect, but our
observation of network traffic showed more connections.



FOR OFFICIAL USE ONLY. Public Availability To Be
Determined under 5 U.S.C. 552, Freedom of Information Act.
 FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE
 FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE

                                                                                   6

server without their knowledge. Had this been an actual attack, the user would
have allowed the attacker access to his or her computer and the COE network. In
addition, none of the 493 users reported the suspicious emails to security officials,
as DOT’s security training suggest.

OCIO’S MANAGEMENT PRACTICES CREATE WEAKNESSES
THAT MAKE THE COE VULNERABLE TO COMPROMISE

Some of OCIO’s management practices for the COE create security weaknesses
that make the system and its data vulnerable to complete compromise. These
practices include: poor configuration management and insufficient applications
and systems’ security testing; lack of an accurate inventory of devices that are
connected to the COE; weak user identity authentication methods; a lack of
sufficient tracking of system security weaknesses; and a lack of required
penetration testing.

OCIO Has Not Securely Configured All COE Systems

OCIO has not properly configured all COE systems to operate securely. NIST
recommends security practices for designing, implementing, and operating
publicly accessible Web servers, including related network infrastructure issues. In
addition, DOT policy requires OAs to allow only the authorized access necessary
for users to accomplish their assigned tasks, and to configure information systems
to provide only essential capabilities.

We tested 205 public Websites and found that 30 of them had vulnerabilities that
could be used to access proprietary data, redirect visitors to malicious sites, take
control of server operations, and/or allow unauthorized access to video
conferencing. For example:

• (FOUO) A file server had settings that would allow users to read and write data
  without passwords and, consequently, easily manipulate data without authority.




• (FOUO) Five servers
  could allow access to all systems running on each server.




FOR OFFICIAL USE ONLY. Public Availability To Be
Determined under 5 U.S.C. 552, Freedom of Information Act.

FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE
 FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE

                                                                                                             7


•



These vulnerabilities increase the risk that the data and personal information of
DOT employees, DOT contractors, and the public could be compromised by
unauthorized access.

OCIO Lacks an Effective Method to Identify Devices on the COE

OCIO has not implemented a tool to manage the complete inventory of devices
connected to the COE’s network, including those used for wireless access. DOT’s
Cybersecurity policy requires all OAs to collect device inventories through
scanning and other continuous monitoring efforts. OCIO provided us with output
from several inventory tools, but none presented an accurate accounting of the
devices present on the network during our tests. For example, OCIO provided
documentation generated by Microsoft Sharepoint, which is used to store and track
electronic documents or images, and BMC Remedy, commercial software for
managing information system assets. However, this documentation did not include
a complete list of all devices on the COE.

Furthermore, OCIO cannot identify unauthorized or insecure wireless access
points that allow wireless devices, such as cell phones, to connect to a network. It
could not account for 443 wireless access points at DOT Headquarters, 190 of
which were not secure. For example, 186 access points were not encrypted and 4
used weak encryption. Because it lacks an accurate inventory, OCIO does not
know when unauthorized devices are present on the COE’s network. As a result,
during our review, we were unable to determine which devices were authorized
and which were not.

OCIO Has Not Established Multifactor Identity Authentication for COE
Users

(FOUO) OCIO has not implemented multifactor identity authentication for all
COE users,                            We first reported this finding in our 2009
               10
FISMA audit. NIST guidance and DOT policy require both employees and
contractors to use personal identity verification (PIV) cards for identity
authentication. DOT policy also requires system owners and administrators to use

10
     Audit of DOT’s Information Security Program and Practices, OIG Report FI-2010-023, November 18, 2009.



FOR OFFICIAL USE ONLY. Public Availability To Be
Determined under 5 U.S.C. 552, Freedom of Information Act.

FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE
FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE


                                                                                                          8

multifactor authentication to access the accounts that they use to modify systems.
OCIO’s plans for multifactor authentication include use of PIV cards, but OCIO
has not completed implementation of these cards for all Department employees
and contractors.
                                                          Because it has not fully
implemented multifactor authentication, OCIO cannot be sure that only authorized
users can access the COE.

OCIO Does Not Perform Required Security Testing on the COE

OCIO does not ensure that all computer servers connected to the COE are scanned
for vulnerabilities or that identified weaknesses are remediated. 11 We selected a
random sample of 134 out of 5,735 computers, and were able to scan 99, or 73.9
percent, successfully. We therefore estimate that the number of computers in the
universe that could have been scanned successfully at the time of our testing was
4,237. 12 We found 34 (34.3%) out of our 99 computers had 86 Critical Issues.
Based on these findings, we estimate that our universe of 4,237 computers had
3,681 critical issues. 13

(FOUO) Furthermore, OCIO has not performed penetration testing on security
controls to identify and mitigate security weaknesses that could allow the COE’s
compromise. DOT Cybersecurity policy requires OAs to scan their systems on a
monthly basis for vulnerabilities, and to determine when new vulnerabilities were
identified and reported. The policy also requires OAs to perform annual
penetration testing on high impact systems such as the COE. However, OCIO
could not provide us with reports of monthly vulnerability scans for its systems or
its OAs’ systems. OCIO also could not provide us with evidence that it had
performed annual penetration testing on the COE



OCIO Does Not Properly Track the COE’s Known Weaknesses for
Remediation

(FOUO) OCIO and the OAs do not create, review, and enter POA&Ms into the
Department’s CSAM system. DOT’s Cybersecurity policy requires OAs to enter
and maintain all identified security weaknesses and their POA&Ms in CSAM. We

11
   In some cases, OAs have agreed to perform scanning and remediation, but OCIO cannot ensure that this is
happening.
12
   Our best estimate of 4,237 computers has a precision of +/-355 at the 90 percent confidence level.
13
   Our best estimate of 3,681 critical issues as a precision of +/-1,100 at the 90 percent confidence level.



FOR OFFICIAL USE ONLY. Public Availability To Be
Determined under 5 U.S.C. 552, Freedom of Information Act.

FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE
FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE

                                                                                                                     9

could not locate in CSAM the POA&Ms prepared as a result of OCIO’s 2012
security certification and authorization assessment 14
          COE staff told us that they kept identified security weaknesses in a
Microsoft access database independent of CSAM. However, this database did not
include all required information for effective vulnerability and remediation
tracking. Furthermore, the use of any repository other than CSAM hinders the
Department’s ability to identify, assess, prioritize, and monitor corrective actions
for remediating security weaknesses. During our audit, COE staff informed us that
they had initiated corrective actions to load security weaknesses into CSAM but
did not provide a scheduled date for completion.

CONCLUSION

Cyber threats such as hackers and social engineering present substantial risks to
the security of Federal information systems. OCIO and most OAs depend on the
COE for vital information technology services, and to protect their sensitive
information. However, because of OCIO’s weak security management practices, a
number of vulnerabilities exist in the COE that could compromise its operations.
This lack of important security controls prevents OCIO from fully safeguarding
the confidentiality of the sensitive data that resides on the COE, as well as
ensuring the availability of COE services, and maintaining the integrity of its
information. Until steps are taken to enhance the COE’s security controls, outside
attackers using the basic methods we used in our tests could seriously compromise
the DOT’s operations.

RECOMMENDATIONS

We recommend that the Chief Information Officer:

1.                  Enforce
                       password complexity requirements
                            in accordance with Departmental Cybersecurity
     Compendium Order 1351.37.

2. Monitor OAs periodic exercises that test COE users’ knowledge of security
   requirements when accessing emails on the Government network.

3. Use automated tools, such as vulnerability scanners or Web application
   scanners to monitor applications residing in the COE on a constant basis, and
14
  OMB Circular A-130, Appendix III states that Federal agencies must certify and accredit their systems for security
compliance. Certification and accreditation require each agency to assess its systems for security risks, test security
controls, and create POA&Ms to resolve identified weaknesses.



FOR OFFICIAL USE ONLY. Public Availability To Be
Determined under 5 U.S.C. 552, Freedom of Information Act.

FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE
FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE

                                                                               10

   require each OA to mitigate vulnerabilities in its system or remove the systems
   from the network.

4. Develop and maintain a complete inventory (current registry) of authorized
   network devices (including wireless) accessible to staff who monitor
   departmental networks.

5. Ensure the system owners perform regular vulnerability assessments and scans
   of all internal systems to identify known vulnerabilities and common
   misconfigurations, and establish a practice to ensure that OAs and OCIO are
   collaborating and agreeing on remediation plans.

6. Perform annual penetration testing of the COE as required by DOT policy.

AGENCY COMMENTS AND OIG RESPONSE

We provided the Department’s OCIO with a draft of this report on July 16, 2013,
and received its written response on August 16, 2013, which is included in its
entirety as an Appendix to this report. In its response, OCIO concurred with all 6
recommendations. The OCIO reported that the recommendations will receive the
highest priority and commits to work with the operating administrations to achieve
the results within the planned timeframes.

ACTIONS REQUIRED

We consider OCIO’s planned actions and target dates responsive to all our
recommendations and consider them resolved but open pending completion of the
planned actions. We appreciate the courtesies and cooperation of the Department
of Transportation’s representatives during this audit. If you have any questions
concerning this report, please call me at (202) 366-1407.


                                        #

cc: Deputy Secretary
    Assistant Secretary for Budget and Programs/Chief Financial Officer
    CIO Council Members
    DOT Audit Liaison, M-1




FOR OFFICIAL USE ONLY. Public Availability To Be
Determined under 5 U.S.C. 552, Freedom of Information Act.

FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE
FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE

                                                                                                          11

EXHIBIT A. SCOPE AND METHODOLOGY

We performed our network security assessment between February 2012 and
July 2013 at DOT Headquarters in Washington, D.C., and in accordance with
generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

To address our audit objectives, we used the guidance provided in
NIST SP 800-115 Technical Guide to Information Security Testing and
Assessment (September 2008) 15 to perform a penetration test and vulnerability
assessment of the COE using widely available tools and techniques. We
interviewed DOT’s CIO, information technology contractors, and senior
leadership to determine what information and resources were critical to COE’s
operation and how protections were implemented. We reviewed and analyzed
documents, policies, and procedures related to COE’s network infrastructure and
Websites.

To address vulnerabilities that could be exploited via the internet, we performed a
penetration test on 205 servers residing in the COE that provided Web services to
DOT personnel and the public. We also employed social engineering techniques
on a random sample of COE users to assess their compliance with security
awareness training.

Finally, we used a statistical sample of 134 out of 5,735 computers provided by
COE’s management to test for vulnerabilities. We were able to scan 99, or 73.9
percent, successfully resulting in an estimated universe of 4,237. 16 For those
computers available at the time of testing, we found 34 (34.3%) out of our 99
computers had 86 Critical Issues. This statistical sample allowed us to project that
our universe of 4,237 computers had 3,681 critical issues, within a 90 percent
confidence level and a margin of error of 6.2 percentage points for the available
computers. We used a NIST validated vulnerability assessment tool to determine
whether the system had security weaknesses that could be exploited.




15
     http://csrc.nist.gov/publications/nistpubs/800-115/SP800-115.pdf
16
     Our best estimate of 4,237 computers has a precision of +/-355 at the 90 percent confidence level.

Exhibit A. Scope and Methodology

FOR OFFICIAL USE ONLY. Public Availability To Be
Determined under 5 U.S.C. 552, Freedom of Information Act.

FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE
FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE

                                                                             12

 EXHIBIT B. Related FISMA Recommendations

 FISMA 2011: Persistent Weakness In DOT’s Controls Challenge The
 Protection and Security of Its Information Systems, FI-2012-007,
 November 14, 2011.
Rec # Status    Recommendation
  2   Open      In conjunction with OA CIOs, establish incident monitoring
                and detection capabilities to include all of the Department's
                systems and facilitate central and real-time reporting.
  5   Open      In conjunction with OA CIOs, verify that minimum security
                controls are adequately tested for deficient systems.


 FISMA 2010: Timely Actions Needed To Improve DOT’s Cybersecurity, FI-
 2011-022, November 15, 2010.
Rec # Status    Recommendation


 23   Open      Implement the use of PIV cards as the primary
                authentication mechanism to support multi-factor
                authentication at the system and application level for all
                DOT's employees and contractors.

 FISMA 2009: Audit of DOT’s Information Security Program and Practices,
 FI-2010-023, November 18, 2009
 No Status     Recommendation
 16 Open       Ensure accurate information is used to monitor Operating
               Administrations’ progress in correcting security weaknesses.




 Exhibit B. Related FISM A Recommendations

 FOR OFFICIAL USE ONLY. Public Availability To Be Determined under 5
 U.S.C. 552, Freedom of Information Act.

 FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE
FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE

                                                                         13



 EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT
 Name                                       Title

 Nathan Custer                       Program Director

 Michael Marshlick                   Project Manager

 Felicia Moore                       Information Technology Specialist

 Jenelle Morris                      Information Technology Specialist

 Tracy Colligan                      Information Technology Specialist

 Nileshkumar Patel                   Information Technology Specialist

 Susan Neill                         Writer-Editor

 Megha Joshipura                     Statistician




 Exhibit C. Major Contributors to This Report

 FOR OFFICIAL USE ONLY. Public Availability To Be
 Determined under 5 U.S.C. 552, Freedom of Information Act.

FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE
           FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE

                                                                                            14

            APPENDIX. AGENCY COMMENTS




            U.S. Department of
                                                  Memorandum
            Transportation

Subject:                                                              Date:
           ACTION: Response to the Office of Inspector
           General Draft Report on Common Operating
           Environment Security

    To:    Louis C. King                                           Reply to
                                                                   Attn. of:
           Assistant Inspector General for Financial and
            Information Technology Audits

  From:    Richard McKinney
           Chief Information Officer


            DOT Focusing on Comprehensive Security Enhancements

            The Office of the Chief Information Officer is making substantive changes to the
            Common Operating Environment (COE) to make the environment more secure for
            the systems it controls and operates, and for the systems it supports for the
            Operating Administrations (OAs) here at the Department. As the new CIO at
            DOT, I have committed to making cyber security the top priority. Improving our
            cyber security posture will require gaining the commitment of management and
            staff throughout the Department to make our cyber environment as safe and secure
            as possible. Getting the basics right is key to successfully achieving this goal so
            we are using a comprehensive team approach to planning and implementing the
            foundational elements along with developing longer term plans.

            This renewed emphasis on having a secure environment acknowledges the
            significance of the OIGs findings, which we have already begun to address. While
            no open information technology (IT) environment can be completely safe from
            compromise, DOT has made great strides in making the COE environment safer
            with the addition of tighter controls, greater emphasis on continuous monitoring,
            and investing resources in better hardware and software. All our recent
            advancements balance the increasing risk threshold to DOT against the scarce
            resources at our disposal, but we will continue to balance the two competing
            forces to achieve our long term goals.

            Appendix. Agency Comments

            FOR OFFICIAL USE ONLY. Public Availability To Be
            Determined under 5 U.S.C. 552, Freedom of Information Act.

           FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE
FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE

                                                                                15




The Information Technology Shared Services (ITSS) organization has actions
underway that meet or exceed the elements within the OIG recommendations. For
example, the organization is working to better enforce Standard Operating
Procedures (SOPs) for the Federal and contractor staffs supporting the COE,
enforcing the Service Level Agreements (SLAs) with our OA partners to ensure
both parties are fully aware and in compliance with the SLAs, and pulling the
resources necessary to monitor our environment on a continuous basis to ensure
the equipment connected to the COE is known or authorized. Additionally, the
ITSS organization will more formally partner with the OAs and the DOT Chief
Information Security Officer's (CISO) organization to look for ways to enhance
security training throughout the Department and make all DOT employees more
conscious of security risks and their role in maintaining a secure environment.
Furthermore, I am committed to significantly increasing the number of staff
assigned to the critical area of cyber-security in both the COE and the CISO
office.

Coordinated ITSS and OA Effort Critical for COE Cyber Security
Improvement

Achieving progress in improving the cybersecurity posture of the COE will
require leadership by the ITSS organization along with coordinated and consistent
cooperation from across the operating administrations. The COE is the
government-owned, contractor-developed, and supported Government Services
Solutions (GSS) that provides the OAs with common IT services such as
identification and authentication domain requirements, file and print functions,
messaging and directory capabilities such as electronic mail and web application
access and database services. The COE's architecture provides a hosting
environment for numerous major applications employed by the various OAs in
support of their individual operational requirements. In addition, several
applications necessary to support operations by all of the OAs have been
integrated into the COE environment. The DOT Common Operating Environment
consists of 4 major systems, Campus Area Network (CAN), Computing Services,
Messaging Services, and Helpdesk Services. Comprehensive, cooperative and
sustained efforts among all participants in the COE will be critical to the success
of our endeavors;




Appendix. Agency Comments

FOR OFFICIAL USE ONLY. Public Availability To Be
Determined under 5 U.S.C. 552, Freedom of Information Act.

FOR OFFICAL USE INFORMAION WAS REDACTED FOR PUBLIC RELEASE
 FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE
                                                                                  16


Recommendation Prioritization

As a practical reality in light of the ongoing constraints on resources, and in order
to align actions with our risk-based approach to cyber security, each of the
responses to the OIG recommendations is accompanied by one of the following
prioritization levels.

Ranking A: Recommendation will receive the highest priority and ITSS commits
to work with the operating administrations to achieve the results within the
timeframe specified.

Ranking B: ITSS will seek to include resources for action in upcoming budget
cycles or reprioritize current year end funds, to the extent that they might become
available. Implementation will commence only when funding is secured.

Ranking C: Based on the priority of compliance with direction from OMB, along
with other priority use of funding and staffing, these actions would be addressed
after priority A and B are completed or if there were an unexpected surfeit of
funds.

One final note: the specific actions to implement the recommendations are
described at a high level within the context of this document. More detailed action
plans are being developed and will be shared separately with the OIG to avoid
potential concerns with sensitive security information in this response.




Appendix. Agency Comments

FOR OFFICIAL USE ONLY. Public Availability To Be
Determined under 5 U.S.C. 552, Freedom of Information Act.
FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE
FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE

                                                                                17



RECOMMENDATIONS AND RESPONSE

       Recommendation 1: Enforce password complexity requirements
                          in accordance with Departmental Cybersecurity
Compendium Order 1351.37.

          Response:     Concur. ITSS management has reviewed
                         accounts to validate password complexity configuration
settings. ITSS will:

   •         Enforce password complexity requirements for any
             which the COE creates in accordance with DOT policy.
   •          Update standard operating procedures (SOP) for the COE
                    to include validation of password configuration setting
     compliance at least annually or whenever events occur (install, recovery,
     major change) to affect enforcement of DOT requirements.

This recommendation is considered priority ranking A. The first task outlined
above will be completed no later than October 1, 2013. The second task, while
still an A ranking, will take additional time and resources, but is planned for
completion no later than March 31, 2014.

Recommendation 2: Monitor OAs periodic exercises that test COE users'
knowledge of security requirements when accessing emails on the Government
network.

Response: Concur. The CIO will collaborate with the OAs on enhanced security
training programs that includes greater emphasis on topics such as spear phishing
and other social engineering topics. ITSS will leverage these collaborative efforts
and use these enhanced security training programs to help ensure full participation
of the ITSS staff. In addition, ITSS will develop a security awareness
communication plan that provides security information in multiple formats such
as, emails and posters that bring additional attention to cyber security issues.

This recommendation is considered priority ranking A. The tasks outlined in this
action are planned for completion no later than September 30, 2014.



Appendix. Agency Comments

FOR OFFICIAL USE ONLY. Public Availability To Be
Determined under 5 U.S.C. 552, Freedom of Information Act.

 FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE
FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE

                                                                               18



Recommendation 3: Use automated tools, such as vulnerability scanners or Web
application scanners to monitor applications residing in the COE on a constant
basis, and require each OA to mitigate vulnerabilities in its system or remove the
systems from the network.

Response: Concur. ITSS has adopted the DOT CISO developed and approved
Security Authorization and Continuous Monitoring Guide 23 January 2013. To
consistently address the recommendations, ITSS will:

   • Coordinate regular web scans with the Cyber Security Management Center
     (CSMC) for identified web servers and applications;
   • Issue a memorandum from the Associate CIO for ITSS to the OA CIOs,
     directing them to remediate or mitigate vulnerabilities in systems they
     administer that are connected to the COE.

This recommendation is considered priority ranking A. The tasks outlined in this
action are planned for completion no later than March 31, 2014.

Recommendation 4: Develop and maintain a complete inventory (current
registry) of authorized network devices (including wireless) accessible to staff
who monitor departmental networks.

Response: Concur. The ITSS will maintain a registry of authorized devices on
the COE network that can be provided at any point in time. Furthermore ITSS will
take steps to minimize the risk of permitting unauthorized access to the COE by
defining authorized devices, developing policy to add/remove devices from the
COE network, and establishing procedures to identify and maintain an inventory
of authorized devices on the COE network. ITSS will also turn down access to
unused network connections by disabling ports. These actions provide an
effective set of actions that can be implemented to fulfill the intent of this
recommendation.

This recommendation is considered priority ranking A. The tasks outlined in this
action are planned for completion no later than March 31, 2014.

As a supplemental action, ITSS will implement a robust Network Access Control
(NAC) solution that would further prevent access to the COE network by
unauthorized devices. This action is considered priority ranking B.

Appendix. Agency Comments

FOR OFFICIAL USE ONLY. Public Availability To Be
Determined under 5 U.S.C. 552, Freedom of Information Act.

FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE
FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE

                                                                              19



Recommendation 5: Ensure the system owners perform regular vulnerability
assessments and scans of internal systems to identify known vulnerabilities and
common
misconfigurations, and establish a practice to ensure that OAs and OCIO are
collaborating and agreeing on remediation plans.

Response: Concur. The ITSS organization will partner with the OAs to develop
remediation plans and identify known vulnerabilities and common
misconfigurations. Additionally, ITSS will establish a practice to ensure OAs and
OCIO are collaborating and agreeing on remediation plans.

Specifically, ITSS will:

   • Coordinate with the DOT CISO and the CSMC to implement credentialed
     scans for the COE network, where COE provides the majority of support
     for the network;
   • Implement a process to communicate identified vulnerabilities to
     appropriate OA personnel;
   • Require OAs to provide status updates and remediation plans as part of the
     memorandum to be issued in response to Recommendation 3.

These processes are considered priority ranking A. The tasks outlined in this
action are planned for completion no later than June 30, 2014.

In addition, as a supplemental action, ITSS will implement appropriate automated
continuous monitoring capabilities to assess COE managed assets for
vulnerabilities and configuration compliance. This action is considered priority
ranking B.

Recommendation 6: Perform annual penetration testing as required by DOT
policy.

Response: Concur. In compliance with DOT policy and the established Rules of
Engagement (ROE) for penetration testing, the COE will engage an independent
assessor to perform the testing.

This recommendation is considered priority ranking A. The task outlined in this
action is planned for completion no later than March 31, 2014.

Appendix. Agency Comments

FOR OFFICIAL USE ONLY. Public Availability To Be
Determined under 5 U.S.C. 552, Freedom of Information Act.
FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE
  FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE

                                                                                20




  The Office of the Chief Information Officer (OCIO) appreciates the opportunity to
  review and respond to the report. If you have any questions concerning this
  response, please contact Thomas Jackowski, Acting Associate CIO for IT Shared
  Services, at (202) 493-0382.




  Appendix. Agency Comments

  FOR OFFICIAL USE ONLY. Public Availability To Be
  Determined under 5 U.S.C. 552, Freedom of Information Act.

FOR OFFICIAL USE INFORMATION WAS REDACTED FOR PUBLIC RELEASE
